CERTIFICATE OF SERVICE
NO. 20-148
Marvin Washington, et al.
Petitioners
v.
William P. Barr, Attorney General, et al.
Respondents
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
NATIONAL ORGANIZATION FOR THE REFORM OF MARIJUANA LAWS ET AL. AMICUS AT PETITION STAGE
IN SUPPORT OF PETITIONERS, by mailing three (3) true and correct copies of the same by USPS Priority
mail, postage prepaid for delivery to the following addresses:
Michael Steven Hiller
Hiller, PC
641 Lexington Avenue, 29th Fl
New York, NY 10022
(646) 408-5995
mhiller@hillerpc.com
Counsel for Marvin Washington, et al.

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for William Barr, et al.

Lucas DeDeus

September 14, 2020
SCP Tracking: Holland-201 East 28th Street-Cover Cream

